No. 21-295
In the

Supreme Court of the United States
__________________

IN RE AMERICA’S FRONTLINE DOCTORS, ET AL.,
Petitioners,

__________________
On Petition for Writ of Mandamus to the
United States District Court for the
Central District of California

__________________

BRIEF OF AMICI CURIAE CALIFORNIA
CONSTITUTIONAL RIGHTS FOUNDATION
AND FAITH AND FREEDOM FOUNDATION
IN SUPPORT OF PETITIONERS
__________________
GARY G. KREEP
Counsel of Record
932 D Street, Suite 1
Ramona, CA 92065
(760) 803-4029
gary@ggkmail.us
Counsel for Amici Curiae

September 28, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. THE MANDATORY VACCINATION POLICY OF THE
UNIVERSITY OF CALIFORNIA IS A VIOLATION OF AN
INDIVIDUAL’S FUNDAMENTAL RIGHT TO BODILY
INTEGRITY AND THE RIGHT TO REFUSE UNWANTED
MEDICAL TREATMENT . . . . . . . . . . . . . . . . . . . . . . 4
A. Bodily integrity and the right to refuse
unwanted medical treatment is afforded the
highest protection and the vaccine mandate
that infringes on this right must pass strict
scrutiny, which this mandate does not, and,
therefore, the mandate violates student's
fundamental rights . . . . . . . . . . . . . . . . . . . . . 5
B. The flaws of Jacobson v. Commonwealth of
Massachusetts . . . . . . . . . . . . . . . . . . . . . . . . . 9
II. CONFIDENCE IN THE JUDICIARY . . . . . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF AUTHORITIES
CASES
County of Butler v. Wolf,
486 F. Supp. 3d 883 (W.D. Pa. 2020) . . . . . . . 9, 10
Cruzan v. Director, Missouri Department of
Public Health, 497 U.S. 261 (1990) . . . . . . . 2, 3, 5
Jacobson v. Commonwealth of Massachusetts,
197 U.S. 11 (1905). . . . . . . . . . . . . . . . . . . 9, 10, 11
Mohamed v. Holder,
266 F. Supp. 3d 868 (E.D. Va. 2017) . . . . . . . . 4, 6
Rochin v. California,
342 U.S. 165 (1952). . . . . . . . . . . . . . . . . . . . . . 2, 5
Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020). . . . . . . . . . . . . . . . . . . . . . . 13
Vacco v. Quill,
521 U.S. 793 (1997). . . . . . . . . . . . . . . . . . . . . . . . 4
Washington v. Glucksberg,
521 U.S. 702 (1997). . . . . . . . . . . . . . . . . . . . 3, 4, 5
CONSTITUTIONS
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 4
Cal. Const. Art. IX, § 9 . . . . . . . . . . . . . . . . . . . . . . . . 7

iii
OTHER AUTHORITIES
Biden and Fauci discuss COVID-19 booster shots
every 5 months (nypost.com); https://nypost.com
/2021/08/27/biden-and-fauci-discuss-covid-19booster-shots-every-5-months/ . . . . . . . . . . . . . . 12
Characterization of pre-existing and induced
SARS-CoV-2-specific CD8 + T cells - PubMed
(nih.gov); https://pubmed.ncbi.nlm.nih.gov/331
84509/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
COVID-19 Seroprevalence Data (ca.gov);
https://www.cdph.ca.gov/Programs/CID/DCDC/
Pages/COVID-19/Sero-prevalence-COVID-19-D
ata.aspx . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
COVID-19 Vaccine Information | Coronavirus
Information Hub | UCI; https://uci.edu/corona
virus/testing-response/covid-19-vaccine.php . . . . 6
Dynamics and significance of the antibody response
to SARS-CoV-2 infection - PubMed (nih.gov);
https://pubmed.ncbi.nlm.nih.gov/32743600/ . . . . 8
https://campusreturn.ucr.edu/sites/g/files/rcwecm4
671/files/2021-04/COVID-19%20Vaccine%20ed
ucation%20slide%20deck_UCLA_UCR%20(1)
.pdf. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
https://pubmed.ncbi.nlm.nih.gov/32979941/ . . . . . . . 8
https://www.medrxiv.org/content/10.1101/2020.07.
21.20159178v1 . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

iv
Incidence of Severe Acute Respiratory Syndrome
Coronavirus-2 infection among previously
infected or vaccinated employees | medRxiv;
https://www.medrxiv.org/content/10.1101/2021.
07.03.21259976v2.full. . . . . . . . . . . . . . . . . . . . . . 6
Necessity of COVID-19 vaccination in previously
infected individuals | medRxiv; https://www.
medrxiv .org/content/10.1101/2021.06.01.212
58176v3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
President Biden’s COVID-19 Plan | The White
House; https://www.whitehouse.gov/covidplan
/#vaccinate. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Roitt’s Essential Immunology, 13th Edition | Wiley;
https://www.wiley.com/en-us/Roitt’s+Essential
+Immunology,+13th+Edition-p-9781118415771
........................................ 7
SARS-CoV-2 antibodies protect from reinfection |
National Institutes of Health (NIH);
https://www.nih.gov/news-events/nih-researchmatters/sars-cov-2-antibodies-protect-reinfection
........................................ 8
US coronavirus: With more than 100,000 people in
the hospital with Covid-19, this August is worse
than last, expert says - CNN . . . . . . . . . . . . . . . . 3
What UC Riverside scientists have to say about
vaccines, variants, and antibodies | News;
https://mediasources.ucr.edu/articles/2021/03/0
3/what-uc-riverside-scientists-have-say-aboutvaccines-variants-and-antibodies. . . . . . . . . . . . . 6

1
INTEREST OF THE AMICI CURIAE1
The California Constitutional Rights Foundation
(CCRF), and Faith and Freedom Foundation, are a
nonprofit educational and legal organization, exempt
from federal income tax under IRC Section 501(c)(3).
Such organizations were established, inter alia, for
the purpose of participating in the public policy
process, including conducting research and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of all citizens, and discussing
questions related to human and civil rights as secured
by law. Amici has previously filed amicus briefs in a
number of other cases.
SUMMARY OF THE ARGUMENT
Students attending the University of California
Schools (UC) who have natural immunity are being
forced to vaccinate themselves against a virus they
have already overcome. Where, regardless of the
student’s exemption status, if they do not submit to
being vaccinated, they are being forced to undergo a
swab up their nose and a mask slapped on their face.
Their fundamental rights to bodily integrity, and
refusing unwanted medical treatment, are being
infringed upon, and the students are no longer being
1

It is hereby certified that counsel for the parties received timely
notice and have consented to the filing of this brief; that no counsel
for a party authored this brief in whole or in part; and that no
person other than these amici curiae, their members, or their
counsel made a monetary contribution to its preparation or
submission.

2
afforded the opportunity to decide on what medical
treatments and procedures are to be performed on their
own body. These students are faced with a life altering
decision of either disenrollment, and losing standard
healthcare offered through UC Student Services,
furthering their education in a discriminatory manner,
or receiving a vaccine for a virus that they have already
overcome.
The coercion that is occurring in the UC system
regarding its mandatory vaccination policy has not only
stripped students of their traditional rights to bodily
integrity and freedom from unwanted touching, but has
also resulted in being shunned by, and segregated
from, their peers, if they make the sound decision to
not be vaccinated. The UC policy states that,
“vaccination is a condition of physical presence at the
university” in order to “protect the University
community.” This means that students will be
disenrolled from the university and would lose
standard healthcare offered to students through the
UC’s Student Health Services. When a state policy
implicates a fundamental right, then the strict scrutiny
standard applies. Strict scrutiny must be applied
herein, as the District Court failed to apply it, and that
error must be corrected.
The United States Supreme Court has held on
several occasions that the right to bodily integrity and
the right to refuse medical treatment is a fundamental
right and is to be protected by the most stringent
standard, strict scrutiny. Rochin v. California, 342 U.S.
165, 167 (1952); Cruzan v. Director, Missouri

3
Department of Public Health, 497 U.S. 261, 278 (1990);
Washington v. Glucksberg, 521 U.S. 702, 720 (1997).
It is the state, or, in this case, UC, a state agency,
that has the burden of proving that their policy is
necessary and narrowly tailored to achieve a
compelling interest. Therefore, the proper
constitutional standard that must be applied in this
case is strict scrutiny, and UC’s vaccine mandate fails
strict scrutiny. The compelling state interest is
presumably to stop the spread of Covid, and, as stated
in the Policy Summary, “protection of the health and
safety of the University community.” However, the
method that UC has implemented is not necessary and
is not narrowly tailored to achieve said purpose,
because it disregards the strength of natural immunity.
This time last year, essentially none of the population
of California had been vaccinated and the state’s
hospitals were not being overrun2 as they are at this
point in time. There are other solutions that UC can
implement that does not force vaccinations upon those
students who have overcome the virus, which does not
result in disenrolling said students, or pursuing
discriminatory measures of a swab up their nose and a
mask slapped on their face. It is egregious to ignore the
years of scientific facts, studies, and experience in
dealing with natural immunity and to solely focus on a
suspicious vaccine that may harm those with natural
immunity and may or may not prevent transmission or
infection.
2

US coronavirus: With more than 100,000 people in the hospital
with Covid-19, this August is worse than last, expert says - CNN;
https://www.cnn.com/2021/08/26/health/us-coronavirusthursday/index.html

4
ARGUMENT
I. THE MANDATORY VACCINATION POLICY OF THE
UNIVERSITY OF CALIFORNIA IS A VIOLATION OF AN
INDIVIDUAL’S FUNDAMENTAL RIGHT TO BODILY
INTEGRITY AND THE RIGHT TO REFUSE UNWANTED
MEDICAL TREATMENT.
The Fourteenth Amendment substantive due
process clause specially protects those fundamental
rights which are, objectively, deeply rooted in the
Nation’s history and tradition. Glucksberg, 521 U.S. at
702–03. Among those fundamental rights is a person’s
right to bodily integrity and the right to refuse
unwanted medical treatment. Id. The Court has
explained that the right to refuse medical care derives
from the “well-established, traditional rights to bodily
integrity and freedom from unwanted touching.” Vacco
v. Quill, 521 U.S. 793, 807 (1997).
It is a violation of such fundamental rights when
the law is not necessary to further a compelling
governmental interest and is not narrowly tailored to
achieve that interest. Mohamed v. Holder, 266 F. Supp.
3d 868, 877 (E.D. Va. 2017).
The decision to remain unvaccinated is a
fundamental right to bodily integrity and the right to
refuse unwanted medical treatment, as a vaccine
requires a needle to pierce the skin of a person’s body,
and, subsequently, a person’s body is then injected with
a medical product, which may or may not protect the
person who has been vaccinated. Therefore, the
requirement of a forced vaccine upon a student to
attend UC falls under the fundamental right to bodily

5
integrity and the right to refuse unwanted medical
treatment.
Here, a student must make the gut-wrenching
decision to either be injected with a drug for which
there are no studies extant concerning its long term
effects, or be disenrolled from UC and lose the UC
standard student healthcare. No meaningful choice has
been afforded to these students. A mandatory
vaccination requirement is an infringement on a UC
student’s fundamental right to bodily integrity and the
right to refuse medical treatment.
A. Bodily integrity and the right to refuse
unwanted medical treatment is afforded
the highest protection and the vaccine
mandate that infringes on this right must
pass strict scrutiny, which this mandate
does not, and, therefore, the mandate
violates student’s fundamental rights.
Bodily integrity and the right to refuse unwanted
medical treatment has long been guarded as a sacred
fundamental right. Rochin, 342 U.S. at 167; Cruzan,
497 U.S. at 278; Glucksberg, 521 U.S. at 720.
Heightened protection is afforded when the
government infringes on certain fundamental rights.
Glucksberg, 521 U.S. at 720. In these instances, the
courts will apply the most rigorous form of
constitutional scrutiny, strict scrutiny.
When a policy implicates a fundamental right,
through coercion or otherwise, the strict scrutiny
standard applies, “a law will not be upheld unless the
government demonstrates that the law is necessary to

6
further a compelling governmental interest and has
been narrowly tailored to achieve that interest.
Mohamed, 266 F. Supp. 3d at 877.
The government interest that UC claims to be
furthering is stopping the spread of Covid, and
protecting the UC community, however, even by their
own words, according to UC, the vaccine ‘could’ ‘may’
‘possibly’ ‘ideally’ create a larger immune response and,
therefore, perhaps, hypothetically, create superior
immunity that has not been observed yet.3 Therefore,
according to UC, they are requiring students be
vaccinated based upon a hypothetical that the
vaccination will create superior immunity. Although
UC’s interest is a noble one, the low hospitalization
rate and low transmittal rate among the unvaccinated
and naturally immune individuals does not align with
that interest.4 Even if the Court finds the interest to be
compelling, the mandatory vaccination policy is not
3

What UC Riverside scientists have to say about vaccines,
variants, and antibodies | News; https://mediasources.ucr.edu/art
icles/2021/03/03/what-uc-riverside-scientists-have-say-aboutvaccines-variants-and-antibodies; https://campusreturn.ucr.edu/
sites/g/files/rcwecm4671/files/2021-04/COVID-19%20Vaccine%20
education%20slide%20deck_UCLA_UCR%20(1).pdf; COVID-19
Vaccine Information | Coronavirus Information Hub | UCI;
https://uci.edu/coronavirus/testing-response/covid-19-vaccine.php

4

Characterization of pre-existing and induced SARS-CoV-2specific CD8 + T cells - PubMed (nih.gov); https://pubmed.ncbi.nlm.
nih.gov/33184509/; Necessity of COVID-19 vaccination in previously
infected individuals | medRxiv; https://www.medrxiv.org/content/
10.1101/2021.06.01.21258176v3; Incidence of Severe Acute
Respiratory Syndrome Coronavirus-2 infection among previously
infected or vaccinated employees | medRxiv; https://www.medrxiv.
org/content/10.1101/2021.07.03.21259976v2.full

7
necessary and not narrowly tailored to achieve that
interest.
The mandatory vaccination policy is not necessary
and is not narrowly tailored to further UC’s policy
because there are other ways in which the university
can “protect the University community” that does not
trample on the constitutionally protected liberty
interests and fundamental rights of unvaccinated
students. The policy is not based on any science that
shows that forced vaccinations are necessary,
appropriate, nor even safe.
To impose these
consequences on those who choose to be unvaccinated,
where natural immunity has been accepted as having
the best and most robust way to deal with the Covid
outbreak5 is government tyranny at its worst.
In fact, UC has endorsed a discriminatory
regulation to coerce Petitioners into participating in an
experimental vaccine program, wherein the
unvaccinated would be shamed, ostracized, and
burdened into getting vaccinated, so that they are able
to remain enrolled in the University and be allowed
access to the public trust education that they have paid
for, and is explicitly identified in the California
Constitution, Article IX, Section 9. This is not a policy
that is narrowly tailored to achieve the UC’s interest,
especially when UC has gone above and beyond in its
efforts to make the students who have decided against
vaccination into being shunned, and identified as
outcasts.
5

Roitt’s Essential Immunology, 13th Edition | Wiley; https://www.
wiley.com/en-us/Roitt’s+Essential+Immunology,+13th+Edition-p9781118415771

8
UC claims that their mandatory vaccination policy
has been implemented to “protect the University
community”, however, the policy of forced vaccination
is not necessary nor narrowly tailored to achieve that
interest when such a policy arbitrarily violates a
student’s fundamental rights to bodily integrity and
the right to refuse unwanted medical treatment. This
is even more apparent in light of the recent
immunological studies demonstrating that natural
immunity developed a robust T-Cell memory6, and
sustained immunity7, which protects from reinfection8,
as well as the fact that as of June, 2021, approximately
85.9% of California adults aged 18 or older have
antibodies to the Covid virus9.
In light of the facts and studies noted, UC has not
met its burden in proving that a mandatory vaccination
policy is necessary and narrowly tailored to achieve
their stated interest of protecting the “University
community,” and the policy, therefore, does not pass
strict scrutiny.

6

https://pubmed.ncbi.nlm.nih.gov/32979941/

7

Dynamics and significance of the antibody response to SARSCoV-2 infection - PubMed (nih.gov); https://pubmed.ncbi.nlm.nih
.gov/32743600/; https://www.medrxiv.org/content/10.1101/2020.07.
21.20159178v1

8

SARS-CoV-2 antibodies protect from reinfection | National
Institutes of Health (NIH); https://www.nih.gov/news-events/nihresearch-matters/sars-cov-2-antibodies-protect-reinfection

9

COVID-19 Seroprevalence Data (ca.gov); https://www.cdph.ca.gov
/ Programs/CID/DCDC/Pages/COVID-19/Sero-prevalence-COVID19-Data.aspx

9
B. The flaws of Jacobson v. Commonwealth of
Massachusetts.
Several state and federal courts have opined that
Jacobson v. Commonwealth of Massachusetts is the
presiding authority that allows for vaccinations to be
mandatory. However, in observing the century’s worth
of cases following Jacobson, the federal cases
addressing fundamental rights are looked at through
the lens of strict scrutiny, and not the broad, hands-off,
deference to state authorities when it comes to matters
of health and safety. County of Butler v. Wolf, 486 F.
Supp. 3d 883, 897 (W.D. Pa. 2020). Specifically, here,
Petitioner’s fundamental rights to bodily integrity, and
the right to refuse unwanted medical treatment, are
being violated, where even under the plain language of
Jacobson, a public health measure can violate the
Constitution. Id.
In Jacobson, the Court had to decide whether a
right secured by the Constitution was violated by a
statute of the state of Massachusetts requiring a
person to be vaccinated against smallpox, or face a fine
or imprisonment for neglecting the vaccine. Jacobson
v. Commonwealth of Massachusetts, 197 U.S. 11, 26
(1905). The Court stated that there were instances
where there is not an absolute right in each person to
be wholly freed from restraint where “persons and
property are subjected to…restraints and burdens in
order to secure the general comfort, health, and
prosperity of the state…[where] [t]he good and welfare
of the commonwealth, of which the legislature is
primarily the judge, is the basis on which the police
power rests in Massachusetts.” Id.

10
The Court found power in the judiciary to review
legislative action in respect to a matter affecting the
general welfare, when,
“a statute purporting to have been enacted to
protect the public health…has no real or
substantial relation to that object, or is, beyond
all question, a plain, palpable invasion of rights
secured by the fundamental law, it is the duty of
the courts to so adjudge, and, thereby, give effect
to the Constitution.”
Id. at 363. Here, the fundamental law is the
fundamental right to bodily integrity and the right to
refuse unwanted medical treatment, where this
judiciary is afforded the duty, and the power, to decide
whether the UC policy is constitutional. The Court in
Jacobson concluded that the statute was a health law
that was enacted in a reasonable and proper exercise of
the police power. Id. at 365.
However, through the century’s worth of case law
since Jacobson, this Court’s rulings have vastly
developed in the arena of federal constitutional law,
where tests have evolved into tiered levels of scrutiny
in matters affecting civil liberties and constitutional
claims. County of Butler, 486 F. Supp. 3d at 897.
Furthermore, post-Jacobson, federal courts “have given
greater deference to considerations of individual
liberties, as weighed against the exercise of state police
power.” Id.

11
Since the courts now give greater deference to
individual liberties, which are at issue in the instant
case, then, too, should this case be viewed with greater
deference toward the fundamental rights involved. The
rights that are at stake in this case are Petitioners’
individual liberties and fundamental rights to bodily
integrity and the right to refuse unwanted medical
treatment, which are being attacked through the
implementation of UC’s mandatory vaccination policy.
Thus, the strict scrutiny test should be applied because
Petitioner’s fundamental rights are being trampled,
where, using the Jacobson ruling, or a lower level of
scrutiny, would not properly address the individual
liberties and fundamental rights involved in this case.
Therefore, with the development of tiered levels of
scrutiny post-Jacobson, and a mountain of federal case
law giving greater deference to individual liberties over
the exercise of state police powers, the highest form of
scrutiny should apply here because Petitioners’
fundamental rights are at stake.
II. CONFIDENCE IN THE JUDICIARY
Once this mandatory vaccination plan is put in
place, and the rights of the people are not properly
respected by the judiciary, it is only a matter of time
before all those who are unvaccinated will no longer be
allowed to participate in certain aspects of society.
First, it will be in small insignificant items, such as
attending restaurants, bars, sporting events, and/or
concerts. Then, those still choosing to be unvaccinated
will no longer be able to participate in essential
practices for day-to-day living, such as banking, grocery
shopping, and even the use of medical facilities.

12
Although this may seem to be a stretch of the
imagination, the Court will recall that when this virus
began, many of us, including government officials and
the judiciary, did not think that “two weeks to flatten
the curve” would turn into “no mask no entry,” which
turned into “no vaccine no entry,” within the span of a
year and a half.
There will come a time where all those who remain
unvaccinated will be officially shunned from society if
the judiciary does not act now and acknowledge the
farce that this mandatory vaccine policy claims to be
“for the protection of the University community.” When
in fact, this policy is penalizing the naturally immune
and masquerading as a pretense for comply or else,
which boils down to outright tyranny.
It can no longer be said that what is occurring
through these forced vaccination policies are for public
health, when countless studies, reports, and other
evidence has been published stating that the vaccine
does not stop transmission or contraction of the virus.
Which is furthered by the fact that one vaccine or two
doses of a vaccine is now not enough, where a booster
shot is being required six months after vaccination, and
the end result will be a booster shot every six months
in order to be considered vaccinated.10 Where does this
madness end?
The Court has the opportunity to end this madness,
now, and be on the side of history that has preserved
10

Biden and Fauci discuss COVID-19 booster shots every 5 months
(nypost.com); https://nypost.com/2021/08/27/biden-and-fauci-discuss
-covid-19-booster-shots-every-5-months/

13
the fundamental rights of the people, instead of
trampling them for the sake of bowing to the
government ring and appeasing those in power who are
in favor of vaccine mandates and shunning the
unvaccinated.
We cannot suspend and forget the Constitution,
even in a pandemic11, for a minutia of hope that
infringing on such constitutional fundamental liberties
would bring about the end to Covid, or a “Path out of
the Pandemic,”12 when, in fact, that will not be the
case. Viruses like Covid will never be fully eradicated
from society. If not Covid-19, it will be the delta
variant, the delta-plus variant, or the mu variant, or
any other variant of Covid that will inevitably make
itself known in the coming months and years.
It is time that the judiciary puts a stop to the
governmental intrusion upon fundamental rights, and
allow, those students who are able and willing to
attend UC without the shame or embarrassment of the
discriminatory practice of constantly shoving a swab in
their nose and slapping a mask on their face so that the
entire university is made aware that they are
unvaccinated. It is now in the hands of the judiciary to
be the check and balance that it is meant to be, and to
respect the rights that are being trampled upon by UC.
A judiciary that respects those rights, and delivers
an opinion that reinforces and upholds the
11

Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 68
(2020).
12

President Biden’s COVID-19 Plan | The White House; https://
www.whitehouse.gov/covidplan/#vaccinate

14
fundamental rights of Petitioners, and puts an end to
the discriminatory measures being set forth by UC, will
vastly increase the confidence of the public in the
judiciary.
Should this Court continue to stand by and allow
UC to chip away at the specially protected fundamental
rights that we all enjoy, by forced vaccination policies
like the one UC has set forth, the consequences will be
ghastly, and never-ending for those who choose to
exercise their fundamental right to bodily integrity,
and the right to refuse unwanted, and intrusive,
medical treatment.
CONCLUSION
For the reasons set out above, the decision of the
District Court should be reversed, and the case
remanded for the court to properly apply the strict
scrutiny test afforded to the fundamental rights that
have been violated by the University policy of forced
vaccination.
Dated: September 28, 2021
Respectfully Submitted,
GARY G. KREEP
Counsel of Record
932 D Street, Suite 1
Ramona, CA 92065
(760) 803-4029
gary@ggkmail.us
Counsel for Amici Curiae

